Audit of USAID's Workforce Planning
for Procurement Officers
Audit Report Number 9-000-03-001-P
November 13, 2002




                    Washington D.C.
November 13, 2002


MEMORANDUM
FOR:           M/OP, Tim Beans

FROM:          IG/A/PA, Dianne L. Rawl /s/

SUBJECT:       Audit of USAID’s Workforce Planning for Procurement
               Officers (Report No. 9-000-03-001-P)

This memorandum is our final report on the subject aud it. In finalizing
this report, we considered your comments on our draft report and have
included this response as Appendix II.

This report contains one recommendation. Though you concur with the
overall recommendation, your comments address the barriers to successful
design and implementation of the recommendation. We understand that
implementation of all components of a workforce plan may not be within
total control of M/OP; however, we do believe that developing a
comprehensive plan, including a plan for collecting relevant data, would
provide many benefits, including providing support for budget and staffing
requests. Consequently, we do not consider a management decision to
have been reached on the recommendation. Please provide within 30 days
any additional information related to actions planned or taken to
implement the recommendation.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                            1
Table of   Summary of Results.....................................................................................3
Contents
           Background ..................................................................................................3

           Audit Objectives ..........................................................................................4

           Audit Findings .............................................................................................5

                      How is the acquisition and assistance function organized and
                      staffed? .............................................................................................5

                      What human capital trends are developing within the acquisition
                      and assistance workforce?................................................................9

                      Does USAID have a human capital management plan for
                      the acquisition and assistance workforce? .....................................12

                                 The Office of Procurement (M/OP) has not developed a
                                 comprehensive workforce plan for the A&A workforce. ..13

           Management Comments and Our Evaluation............................................15

           Scope and Methodology (Appendix I).......................................................17

           Management Comments (Appendix II) .....................................................19




                                                                                                                           2
Summary of   This audit was designed to determine, (1) how USAID's acquisition and
Results      assistance (A&A) function was organized and staffed, (2) what human
             capital trends were developing within the A&A workforce, and (3) if
             USAID had a human capital management plan for the A&A workforce.

             The A&A function has two components: the Office of Procurement,
             located in Washington, D.C., and procurement offices located in USAID
             overseas missions. At the time of the audit, the Office of Procurement
             was staffed with 115 direct hire employees, which included an Office
             Director, two Deputies, and seven division chiefs. In addition, the
             procurement staff can also include occasional personal service contractors.
             The Washington workfo rce included both Civil Service and Foreign
             Service employees. The overseas A&A workforce consisted of 48
             Foreign Service contract officers (COs) assigned to 30 USAID overseas
             missions, supplemented by U.S. and foreign national personal service
             contractors and foreign national employees (page 5).

             Since 1997, USAID's procurement function has been the topic of
             numerous reviews. Consistent throughout the resultant reports were
             statements that there were insufficient numbers of procurement personnel,
             principally in the Office of Procurement but in the overseas missions as
             well. A&A employees consistently reported that their workloads were
             unmanageable and unfairly distributed between individuals and offices,
             causing stress and necessitating significant overtime (page 9).

             The Office of Procurement (M/OP) has not developed a comprehensive
             workforce plan that covers its entire A&A workforce. As a result,
             workforce data needed to provide a basis for long-term recruitment and
             succession planning, workforce and budget requests, and training
             requirements for the entire procurement workforce have not been routinely
             collected and analyzed. Lack of a comprehensive plan puts the
             achievement of USAID’s programmatic goals at risk (page 12).

             This report includes one recommendation for the Director of Procurement
             to develop a comprehensive workforce plan for the USAID procurement
             workforce. This plan would serve USAID in making effective decisions
             in determining, recruiting, and assigning the appropriate number of
             procurement officers in Washington and overseas.



Background   USAID achieves development results largely through intermediaries—
             contractors or recipients of grants or cooperative agreements—and, as a
             result, efficient and effective acquisition and assistance (A&A) systems


                                                                                        3
                   are critical. USAID, the OIG, and the U.S. General Accounting Office
                   (GAO) have identified USAID’s A&A systems as a major management
                   challenge and recognized that improvements are essential to the success of
                   USAID’s program objectives. A critical component of USAID’s A&A
                   system is its procurement workforce.

                   GAO has focused increasing attention on the federal government’s
                   strategic human capital management challenges, which include such key
                   areas as: strategic human capital planning; leadership continuity and
                   succession planning; acquiring and developing a workforce whose size,
                   skills, and deployment meet agency needs; and creating results-oriented
                   organizational structur es. GAO reviewed the status of human capital
                   management at 20 agencies for its report, High-Risk Series An Update,
                   dated January 2001, and highlighted a significant problem at each agency.
                   GAO’s USAID-specific comments targeted the procurement function,
                   stating, “Staffing shortfalls in the procurement area have hampered the
                   agency’s ability to initiate and monitor contracts, thus delaying
                   reconstruction assistance in the wake of natural disasters in Central
                   America and the Caribbean.”

                   USAID is not alone in attempting to ameliorate A&A workforce
                   problems. In the same report, GAO noted that:

                          It is also becoming increasingly evident that agencies are at
                          risk of not having enough of the right people with the right
                          skills to manage large procurements. Past downsizing
                          efforts coupled with a continuing loss of government’s
                          more experienced and valued acquisition workers have
                          resulted in a huge knowledge drain. At the same time, the
                          demand for skilled acquisition workers to manage
                          outsourcing efforts is growing, as outsourcing becomes an
                          increasingly popular avenue for delivery of government
                          services. Acquisition workforce problems can be seen as
                          part of a broader pattern of human capital shortcomings
                          that have eroded mission capabilities across the federal
                          government.

                   This audit focuses on human capital issues related to the A&A function
                   within USAID.



Audit Objectives   This audit was conducted as part of the OIG's multi-year strategy for
                   auditing USAID procurement activities.

                   The objectives of this audit were to answer the following questions:



                                                                                            4
                 How is the acquisition and assistance function organized and staffed?

                 What human capital trends are developing within the acquisition and
                 assistance workforce?

                 Does USAID have a human capital management plan for the
                 acquisition and assistance workforce?

                 Appendix I contains a discussion of the scope and methodology for this
                 audit.



Audit Findings   How is USAID’s acquisition and assistance function organized and
                 staffed?

                 USAID’s acquisition and assistance activities are performed by a
                 workforce that is located both in Washington and in USAID’s overseas
                 missions and is composed of people working in a variety of capacities and
                 employment categories. The workforce falls into three major groupings.

                     •    U.S. Civil Service employees, who are assigned to the Bureau for
                          Management, Office of Procurement (M/OP), located in
                          Washington. This group includes contract specialists, purchasing
                          agents, technicians, procurement analysts, auditors, support
                          personnel and warranted procurement officers 1 . Civil Service
                          employees may also undertake temporary duty assignments to
                          support understaffed overseas missions and apply for temporary
                          appointments as Foreign Service procurement officers.

                     •    U.S. Foreign Service employees, who may work in M/OP but are
                          generally assigned to overseas missions. This group includes
                          warranted procurement officers, and executive officers with
                          limited warrants.

                     •    U.S. and foreign national personal service contractors and foreign
                          national employees, who are hired by and work in USAID’s
                          overseas missions.

                 The Washington and overseas workforces are managed quite differently.

                 The Washington workforce: Although M/OP has primary responsibility
                 for acquisition and assistance activities in Washington, certain senior
                 1
                  A warrant delegates authority to individuals to negotiate, sign, and administer contracts
                 on behalf of the U.S. Government.


                                                                                                          5
   officials in other Washington bureaus have also been delegated authority
   to award grants and certain interagency agreements. In addition, two of
   these bureaus have awarded contracts to acquire procurement services to
   support their program needs.

   M/OP manages Washington-based Civil Service (GS) and Foreign Service
   (FS) procurement officials and on occasion personal service contractors
   hired by certain bureaus to augment the M/OP workforce. A Director,
   who at the time of the audit was also USAID’s Procurement Executive,
   and two Deputy Directors head M/OP. The first deputy leads three
   divisions organized to process acquisition and assistance awards for the
   USAID/Washington bureaus and offices. The second deputy leads those
   divisions responsible for providing policy, evaluation, training, and
   systems support to Washington and overseas procurement. An M/OP
   organizational chart provided below identifies the branch activities
   subordinate to each division.

                                                  Office of Procurement (M/OP)
                                                         As of June 2002
                                                                                      Director M/OP
                                                                                            (2)


                                                                  Special Assistant
                                                                         (1)



                           Deputy Director                                                                                         Deputy Director
                                 (1)                                                                                                     (1)



Humanitarian Response         Global                   Europe
        Africa                Division             & Eurasia (E&E)                    Policy Division    Transportation &           Procurement Support Division    Evaluation Division
& Management Division            (1)                   Division                             (6)         Commodity Division                      (2)                         (9)
         (1)                                             (1)                                                   (1)



       Africa Bureau             Economic                Democracy
       & Management               Growth               & Governance                                        Commodity Branch                    Contract Audit
             (7)                    (7)                     (8)                                                  (3)                           Management
                                                                                                                                                    (5)


       Food for Peace         Environment            Market Transition
            PVC                 Women in              & Procurement                                      Transportation Division             Overhead, Special
              (6)          Development (EWID)               (4)                                                    (7)                       Costs & Close Out
                                   (6)                                                                                                            Branch
                                                                                                                                                     (8)
        Bureau for              Population             Asia-Near East
   Humanitarian Response         Health &           Environment-Energy                                                                    Support Services Branch
       OFDA & OTI             Nutrition (PHN)         Social Transition                                                                             (1)
            (6)                      (7)                     (7)

                                Democracy
                               & Governance                                                                                                 Contract Information
                              Human Capacity                                                                                                Management Branch
                              & Agriculture (5)                                                                                                      (2)



                                                   THIS IS AN ORG CHART
   The numbers shown above in parentheses denote the number of staff assigned
   within each branch/division

   Each year, the Bureau for Management allocates a certain number of
   employee positions to M/OP to perform its responsibilities. The following
   table shows the status of positions allocated to M/OP during fiscal years
   2000, 2001 and 2002.




                                                                                                                                                                          6
                  Status of Positions Allocated to M/OP
                     (The data presented is unaudited)
                            FY 1999     FY 2000     FY 2001      FY
                                                                2002
                                                               Revised
 Positions Allocated               128           129     129       126
 Beginning Balance                 141           131     112       107
 Year-end Balance                  131           112     107      115*
                                 123/8         105/7   102/5     111/4

Bold = Number of Civil Service employees
Italic = Number of Foreign Service employees
* = Workforce levels as of June 30, 2002

M/OP’s staffing allocation is determined as a part of staffing decisions
made for its parent bureau, the Bureau for Management. Once a
workforce level has been established for the Bureau, positions are
allocated to the Bureau’s component offices, including M/OP. Any
increase in the allocation to one office would require a corresponding
decrease in the allocation to another office. Such a reallocation occurred
in fiscal year 2002, when M/OP’s initial allocation of 129 positions was
decreased to 126 at mid-year to provide positions to another office within
the Bureau for Management.

According to officials within the Bureau for Management, M/OP’s
allocation is based on prior year allocations and not on a comparison
between current staffing levels and an assessment of:

•   the organization's responsibilities,
•   the program and customer expectations of the organization, and
•   staffing trends within the organization.

Although M/OP is composed primarily of Civil Service employees, as
reflected in the table above, M/OP also includes a fluctuating number of
Foreign Service procurement officers who are counted against M/OP's on-
board staffing levels during their Washington tours. These Foreign
Service officers could be assigned to Washington because (1) Washington
is their first post of duty, (2) they are transiting between overseas
assignments, or (3) they are on their periodic tour of duty in Washington.
Some officials believe that M/OP must begin to plan for and set aside a
larger number of positions for Foreign Service officers to accommodate a
larger Foreign Service procurement workforce. However, an appropriate
number has not been established.

The overseas procurement workforce: Just as USAID’s Washington
bureaus and offices have acquisition and assistance requirements


                                                                             7
associated with their programs and operations, each USAID mission or
post overseas has acquisition and assistance requirements of its own. The
mission directors or principal USAID officers at each post serve as the
head of that unit’s acquisition and assistance activity and have limited
A&A authority by virtue of their positions. For example, mission
directors may award grants and non-personal services contracts that do not
exceed $100,000 and sign personal service contracts that do not exceed
$500,000. After receiving training, 13 mission directors were authorized
to award grants that do not exceed $1 million to non-U.S. organizations.
Mission executive officers, after receiving training, also have limited
authority to sign contracts.

The overseas A&A activities are primarily the responsibility of one or
more resident Foreign Service procurement officers, supported by foreign
national employees or U.S. or foreign national personal service
contractors. Alternatively, procurement staff resident at a neighboring or
regional mission may perform these activities. Foreign Service
contracting staff report directly to the Mission or Deputy Director.

As of June 2001, 48 Foreign Service procurement officers were assigned
to the overseas units shown in the table below.




                 Overseas Procurement Organization


                         Europe &                    Asia & Near Latin America
          Africa
                          Eurasia                        East      Caribbean
         Botswana -3      Kazakhstan-1                        Egypt-5           Bolivia-2
         Ethiopia-1        Hungary-3                          Jordan-1          Guatemala-1
          Ghana-2          Ukraine-2                 West Bank, Gaza-2      Dominican Republic-2
        Madagascar-1       Russia-1                            India-1            Peru-1
           Mali-1          Georgia-1                       Indonesia-1         El Salvador-1
       Mozambique-1                                       Bangladesh-2           Colombia-1
          Kenya-4                                         Philippines-1         Honduras-1
          Senegal-2                                        Cambodia-1
        South Africa-1   The numbers represent the number of direct hire
                         procurement officers assigned to each respective
          Uganda-1       location.




In addition, as shown below, approximately 230 individuals who are non-
U.S. direct hires perform procurement-related functions as a part of their
duties in USAID missions.



                                                                                                   8
        Number of Non-U.S. Direct Hires Performing Procurement
          Functions Overseas, as of September 2001, by Category
                       (The data presented is unaudited)
                     Employment Category                    Number
    U.S. Personal Service Contractor (PSC)                       14
    U.S. Employee on detail from another Federal agency            1
    Third country national PSC                                   14
    Foreign national PSC                                        191
    Foreign national employees                                   10
       Total                                                    230

Each year, working within non-binding target workforce ceilings
established by USAID's Office of Budget, managers in USAID missions
and four geographic bureaus prepare workforce requests for their overseas
Foreign Service workforces, which include procurement. The Office of
Budget controls and monitors overall allocations and on-board staffing
levels. Within agency-wide ceilings, when the demand for Foreign
Service procurement officers exceeds supply, USAID will initiate a
specialized recruitment effort. Mission managers also request and are
allocated funds to hire U.S. and foreign national personal service
contractors and foreign national employees to support USAID’s Foreign
Service procurement officers. Finally, M/OP supports overseas
procurement with temporary duty personnel from Washington in those
instances when Foreign Service procurement officers are absent from their
posts for extended periods for such things as home leave.

What human capital trends are developing within the acquisition and
assistance workforce?

Since 1997 several USAID-sponsored task forces and focus groups 2 have
reported that USAID’s employees, managers, customers, and procurement
officials believe that there are serious problems within the procurement
function, primarily in Washington but also overseas. An insufficient
number of procurement personnel was the presumptive cause of these
problems, typically supported with anecdotal, rather than objective

2
  For example, USAID convened a Workforce Planning Task Force in September 1997.
In its November 1997 report it stated that M/OP contracting officers carried heavy
workloads and that there appeared to be an unacceptably high rate of turnover among
procurement staff. This condition was reported again in July 2001 by a consultant hired
to assess four management systems, including procurement. Its report noted that M/OP’s
employees, managers, and customers believed that “procurement within the Agency was
                            concerned that, because of vacancies in M/OP, there were
not enough staff members to handle the work. Another consultant reported in fiscal year
2002 that workload comparisons across M/OP divisions and branches suggested
staffing/workload imbalances due to the absence of a process within M/OP for realigning
staffing and/or workload.


                                                                                     9
evidence. A&A employees consistently reported that their workloads are
unmana geable and unfairly distributed between individuals and offices,
causing stress and necessitating significant overtime. Although this
working environment caused some to retire, separate, or transfer within
USAID, most responders to an OIG questionnaire believed that
procurement employees leave the agency primarily to obtain better
positions or benefits.

During this audit, the OIG surveyed Civil Service and Foreign Service
procurement officials (both in Washington and overseas) to obtain their
views on a variety of human capital management issues that affect
retention, including workload and staff distribution and recruiting, hiring
and succession planning. Detailed information describing the surveys
along with information pertinent to the survey respondents is described in
Appendix I (page 17). Furthermore, the OIG also surveyed procurement
personnel who worked in M/OP and subsequently separated from USAID,
or changed career fields during the period October 1998 through March
2001.

The following tables address employees' opinions in the areas of workload
(page 10), compensation and benefits (page 11), career development (page
11), and retention (page 12). Overall, a significant majority of the
employees who responded to the survey found their work to be rewarding
and challenging and believed they had received appropriate training to do
their jobs. However, responses to other aspects of their employment with
M/OP were not as favorable.

The following table indicates that a significant majority of the 47
employees who responded to the OIG questionnaire found their work to be
rewarding and challenging. Notwithstanding these benefits, 87 percent
believed that workloads were unbalanced and 85 percent stated that stress
levels were high.

                      Employee Responses Regarding Workloads
                                      Percent of Total Responses
                               Strongly                       Strongly   Total
                               Agree     Agree Disagree Disagree         Responses
Work is rewarding and             30       55          13         2          47
challenging
Workload is manageable             0       15          28         57          47
Workloads are balanced             0       13          38         49          47
across the procurement
workforce
Stress levels are not too high     0       15          49         36          47
Management supports                2       23          47         28          47
improvements




                                                                          10
As shown in the following table, 67 percent of the respondents believe that
the compensation and benefits package offered by USAID is
unsatisfactory. This is significant as the responses to other OIG questions
indicate that employees leave their USAID procurement positions most
often in search of better benefits.

          Employee Responses Regarding Compensation and Benefits
                                Percent of Total Responses
                             Strongly                        Strongly     Total
                             Agree      Agree    Disagree    Disagree   Responses
Compensation is fair and
equal to that of other           7        26        38          29           45
Federal agencie s
Satisfied with benefits          6        45        45           4           47

Although employees felt that appropriate training is encouraged and
provided, other aspects of their career development were not given
sufficient attention. As shown, nearly 74 percent believed that
management failed to recognize high performers. This dissatisfaction
might be a reason that some seek better career opportunities elsewhere.

                 Employee Responses Regarding Career Development
                                     Percent of Total Responses
                              Strongly                       Strongly   Total
                               Agree Agree Disagree Disagree            Responses
 Career path is defined,          0       40          30         30         47
 communicated and
 understood
 High performing                  0       26          48         26          46
 employees are recognized
 Employees are provided           2       41          40         17          47
 the tools needed to do their
 jobs
 Management provides             13       55          17         15          47
 feedback and guidance
 Training is encouraged          11       59          28         2           47
 and available
 Sufficient training is          15       51          30         4           47
 provided

A significant number of responders blamed weaknesses in USAID’s
personnel management and recruitment processes for the agency’s
inability to hire replacements at a pace that kept abreast of separations.




                                                                             11
                       Employee Responses Regarding Retention
                                     Percent of Total Responses
                              Strongly                       Strongly   Total
                              Agree     Agree Disagree Disagree         Responses
 USAID is doing a good            0        4          40         56         45
 job at retaining its most
 talented people
 Staff turnover is managed        0        9          39         52         46
 effectively and does not
 affect workload

USAID has not hired enough new procurement personnel to fill M/OP’s
allocated positions and keep pace with separations, retirements or
transfers. To illustrate, 50 staff members separated from M/OP during the
period from October 1998 to March 2001. Retirements accounted for 34
percent of the attrition, resignations accounted for 28 percent and transfers
to other USAID offices or bureaus accounted for 38 percent. During this
period, M/OP experienced a 24.8 percent overall attrition as turnover
exceeded the number of additions to the M/OP staff.

In summary, surveys, including that performed by the OIG, indicate that
USAID’s procurement personnel find their work to be both challenging
and rewarding. However, the same staff members also believed that,
because of unfilled vacancies and poor recruiting and personnel
management practices, their workloads were unmanageable and they were
unable to perform all their responsibilities well. As discussed below,
although the employees believed that USAID could do more to stem
losses and fill vacancies, USAID managers have not collected the data
needed to pinpoint the causes of attrition and unsuccessful recruiting
efforts and make needed changes to retain qualified procurement
personnel.

Does USAID have a human capital management plan for the
acquisition and assistance workforce?

USAID has not developed a comprehensive workforce plan tha t covers its
entire A&A workforce. The General Accounting Office has issued
numerous reports intended to help federal agencies better manage human
capital. The need for both agency-wide and unit-specific workforce plans
was discussed in detail in a recent GAO Exposure Draft: A Model of
Strategic Human Capital Management, GAO-02-373SP, released March
2002. In this report GAO reports that human capital planning should be a
key component of agencies' efforts to build a results-oriented organization
and achieve organizational goals. A human capital management plan for
USAID's A&A workforce is particularly critical because USAID’s goals
and results will be achieved in large part through the contracts, grants, or



                                                                           12
cooperative agreements awarded to intermediaries by the A&A workforce.
M/OP has not developed a comprehensive workforce plan that covers its
entire A&A workforce, although it does use annual requests for
procurement staff submitted by overseas missions to initiate Foreign
Service recruitments and to allocate funds for non-U.S. direct hire
procurement personnel. Furthermore, neither M/OP nor USAID's Bureau
for Management, Office of Human Resources (M/HR) routinely collected
or analyzed workforce data needed to provide a basis for long-term
recruitment and succession planning, workforce and budget requests, and
training requirements for the entire procurement workforce. Lack of a
comprehensive plan, including a plan to collect relevant data, puts the
achievement of USAID’s programmatic goals at risk. M/OP has not
developed a comprehensive workforce plan because of the limited control
it has over factors such as, allocated staffing levels and budget resources,
and the assignment of Foreign Service officers.

M/OP has not developed a comprehensive
workforce plan for the A&A workforce

Strategic human capital management is increasingly seen as an essential
element of good governance. The need for both agency-wide and unit-
specific workforce plans was discussed in detail in a recent GAO
Exposure Draft: A Model of Strategic Human Capital Management,
GAO-02-373SP, released March 2002. This publication promotes several
concepts that GAO believes are essential to effective organizations.
According to this publication, “people are an agency’s most important
organizational asset. An organization’s people define its character, affect
its capacity to perform, and represent the knowledge-base of the
organization.” It further reports that high-performing organizations use a
fact-based approach to human capital management to maximize the value
of human capital as well as manage risk. In a fact-based approach, valid
and reliable data are critical. The types of data that can inform workforce
planning efforts include but are not limited to: size and shape of the
workforce, skills inventory, attrition rates, projected retirement rates and
eligibility, deployment of temporary employee/contract workers,
dispersion of performance appraisal ratings, average period to fill
vacancies, data on the use of incentives, employee feedback surveys,
feedback from exit interviews, grievances, or acceptance rates of job
candidates.

Despite the widening gap between separations and new hires, neither
M/OP nor M/HR routinely held exit interviews with departing employees,
and officials in these offices did not collect information that could be used
to determine why M/OP employees had decided to retire, separate, or
transfer to other USAID offices. During the OIG audit, we surveyed 14
individuals who had separated from M/OP between October 1999 and



                                                                           13
March 2001. Six of the respondents replied that their principal reason for
leaving M/OP was the expectation of better opportunities elsewhere in
USAID or with other organizations. Most did not leave for other career
fields: eleven of the respondents continued their career in procurement-
related positions subsequent to separating from M/OP. Recruiting and
training new employees can be expensive for any organization and efforts
to improve retention can reduce the need for these costs. Information
gained by talking to departing personnel can help M/OP and M/HR
uncover ways to make M/OP's A&A positions more attractive and
satisfying to existing and new workers.

Information about the success or efficiency of specific recruitment efforts
would also be useful to an effective recruitment effort. However, neither
M/OP nor M/HR was able to provide the following information regarding
efforts to hire procurement officials during the period October 1999
through March 2001:

•   The average number of days that elapsed from receipt of an
    application to date of candidate interview, from interview to date of
    job offer, and date of job offer to onboard date.

•   The number of employment offers made and number accepted.

•   Amounts spent on recruitment of procurement officers.

•   A statement of the knowledge and skills needed for current and future
    members of the A&A workforce and specific skills that should be
    targeted as a part of recruiting efforts.

•   Guidelines or succession plans for ensuring continuity in key M/OP
    management positions.

•   Analyses of the relationship between allocated staffing levels and
    M/OP and mission A&A workloads during fiscal years 1999 through
    2001.

Workforce planning decisions should consider both the range of tasks to
be accomplished and the size of the workforce needed to accomplish them.
However, an agency team recently developed customer service standards
for M/OP without developing data on the size, location, and skills of the
workforce needed to implement them. As part of an agency-wide effort to
meet the expectations of Executive Order 12862, “Setting Customer
Service Standards,” a USAID team developed standards for the acceptable
performance of 28 major services provided by each of M/OP’s seven
divisions. M/OP officials said that the team did not consider the human
capital needed for successful fulfillment of the standards. Business


                                                                            14
                   decisions made without due consideration of the human capital needs they
                   entail or the human capital approaches required are not likely to be
                   successfully implemented.

                   Because an effective A&A function is so critical to the successful
                   achievement of USAID’s goals, we are making the following
                   recommendation to help ensure that USAID has the right people, with the
                   right skills, in the right place, and at the right time to carry out USAID’s
                   A&A responsibilities as efficiently and effectively as possible. In our
                   opinion, this recommendation would facilitate USAID in making effective
                   decisions in determining, recruiting, and assigning the appropriate number
                   of procurement officers in Washington and overseas.


                          Recommendation No. 1: We recommend the Director of
                          Procurement develop a comprehensive workforce plan for the
                          USAID procurement workforce. A comprehensive workforce
                          plan should include a mechanism for collecting and analyzing
                          data related to the procurement function to allow managers to
                          compare current staffing patterns to developing trends, initiate
                          recruitment and training programs, match staff to workloads,
                          and quickly adjust when unbalanced workloads develop.




Management     In response to our draft report, M/OP management overall concurred with
Comments and the recommendation to develop a more comprehensive workforce plan for
Our Evaluation USAID's procurement workforce. However, M/OP management
                   questioned whether a plan could be developed and implemented, given the
                   limited control M/OP has over factors such as, allocated staffing levels
                   and budget resources, and decisions regarding Foreign Service officer
                   assignments. M/OP commented that, without a comprehensive Agency-
                   wide workforce plan, it might not be able to implement its own plan.

                   M/OP's concerns should not prevent it from developing plans to collect
                   and analyze data related to the procurement function that would allow
                   managers to compare current staffing patterns to developing trends,
                   initiate recruitment and training programs, match staff to workloads, and
                   quickly adjust staffing patterns when unbalanced workloads develop. In
                   fact, the audit recommendation if implemented might assist M/OP with the
                   management challenges it faces. The data generated from the
                   recommended comprehensive workforce planning process could serve as
                   justification for increased staffing and budget allocations. Because
                   management has not provided a plan of action for implementing
                   Recommendation No 1, we do not consider that a management decision
                   has been reached.


                                                                                             15
Management also suggested some changes and corrections to the draft
report, all of which we have incorporated into the final report.
Management comments are included in their entirety in Append ix II (page
19).




                                                                      16
                                                                              Appendix I


Scope and     Scope
Methodology
              The audit was conducted in accordance with generally accepted government
              auditing standards. The Performance Audits Division of the Office of
              Inspector General conducted the audit to determine, (1) how USAID's
              acquisition and assistance (A&A) function was organized and staffed, (2)
              what human capital trends were developing within the A&A workforce,
              and (3) if USAID had a human capital management plan for the A&A
              workforce. We reviewed staffing-related information for the period
              covering October 1999 through June 2002. We did not perform tests to
              examine management controls of the A&A function nor has the OIG
              performed prior audits of M/OP's workforce planning process. We
              conducted the audit fieldwork between June 25, 2001 and July 31, 2002 in
              USAID/Washington. An exit conference was conducted with the Director of
              M/OP on September 5, 2002 to discuss the results of the audit.

              Methodology

              To accomplish the audit objectives we performed the following
              procedures:

                 •    Reviewed regulations relating to workforce planning;
                 •    Conducted interviews with eight of the nine M/OP Branch Chiefs,
                      five of the seven M/OP Division Chiefs, and both the M/OP
                      Director and two Deputy Directors;
                 •    Developed a questionnaire to survey employees who resigned from
                      M/OP;
                 •    Reviewed “Best Practices” documentation from several other
                      federal agencies to determine how other agencies managed
                      workforce planning; and
                 •    Conducted research through the Office of Personnel Management
                      workforce planning website on workforce planning done by other
                      federal agencies.

              In addition to the procedures outlined above, a survey questionnaire was
              developed for purposes of collecting information to identify human capital
              trends developing within the A&A workforce. The survey was structured
              into four sections. The first section collected general employment data
              (e.g., number of years in procurement, number of years of work at
              USAID, job series, grade, etc.). The second section collected data on
              USAID's recruitment and hiring process. The remaining sections asked
              respondents to indicate their level of satisfaction with various areas of
              employment and retention efforts in the Office of Procurement and


                                                                                      17
USAID. We conducted an analysis of the collected data in order to
identify common responses and specific issues regarding the recruiting,
hiring, retention, and succession planning efforts within M/OP.
Descriptive information relative to the universe of employees surveyed
and correspond ing respondents is provided in the following table:


                    Information about Respondents
 Number of employees who received the questionnaire                               147
 Number of surveys received *                                                      53
 Number of respondents who are GS                                                  32
 Number of respondents who are FS                                                  21
 Average number of years of government service                                    18.4
 Average number of years with USAID                                               10.9
 Average number of years in the procurement field                                 14.5
 Average number of years in the procurement field with USAID                       8.8

*A total of 53 surveys were received. However of these 53, six surveys were not
sufficiently completed to incorporate into the summary calculations.




                                                                                   18
                                                           Appendix II

Management
Comments:




    U.S. Agency for
     International
      Development



    MEMORANDUM

    TO:        IG/A/PA, Roosevelt Holt, Jr.

    FROM:      M/OP, Timothy T. Beans

    SUBJECT: Draft Report - Audit of USAID's Human Capital
    Staffing of Procurement Officers

         Thank you for the opportunity to review and provide our
    comments on the draft audit report. Overall, we concur with
    the recommendation to develop a more comprehensive workforce
    plan for USAID's procurement workforce. Our biggest concern
    is whether we can, in fact, develop and implement a plan with
    reasonable success given the limited control we have over many
    factors such as what our FTE level will be from year to year,
    what budget resources will be available, where foreign service
    officers will be placed, when foreign service officers may
    need to return to Washington. Without a comprehensive Agency-
    wide workforce plan that is actually used to manage the
    Agency's workforce, we may not be able to implement our plan.

    As the report notes, there are a number of difficult factors
    involved in assessing workforce needs as well as retention
    factors. In regard to retention incentives, M/OP has made
    various recommendations (e.g., higher on-the-spot awards,
    tuition reimbursement), but we have had limited Agency
    resources to implement them, or they have been dependent upon


                         1300 PENNSYLVANIA AVENUE , N.W.
                            WASHINGTON, D.C. 20523



                                                                   19
other offices within USAID to provide the authority to
implement. We have undertaken some tuition reimbursement with
our own budget resources given the importance we place on this
matter. With regard to staff departures, we plan to undertake
a more consistent effort discern staff reasons for leaving
USAID's procurement workforce.

     We have learned from our recruitment efforts over the
past two years with an open continuous announcement at the GS
9-13 level.   A continuous announcement is very difficult to
manage, requires continuous resources, and may not correspond
to specific recruitment needs at any one time due to attrition
and needed skill levels. In regard to recruitment incentives,
M/OP has also made various recommendations (e.g., recruitment
bonuses, outreach conferences), but we have only been able to
utilize them in some instances due to limited funding
resources. Our most recent thoughts on recruitment are to
alternate between entry-level positions (GS 5-7) and more
experienced career ladder positions (GS 9-13), and to
undertake 2-3 recruitment cycles during the course of a year
given the difficulty in being able to predict needs and skill
levels at any onetime. In regard to USAID's foreign service
(FS) workforce, recruitment is more institutionalized among
M/HR and M/OP, and typically involves two recruitment cycles
per year. This knowledge will be quite helpful in developing
a workforce plan.

     In addition we have a couple of comments on the language
of the draft report. On page 5,the second bullet identifies
Mission Directors as part of the A&A workforce. While Mission
Directors perform certain A&A functions, it doesn't seem
appropriate to categorize them as part of the A&A workforce.
Particularly since the audit is geared towards having the OP
director develop A&A workforce plans. Mission Directors can't
be included in any such plan except a recognition that they
can sign some awards - clearly they need staff to do it. If
discussion of Mission Directors remains, the discussion at the
bottom of page7 and the top of page 8 needs to be changed. In
the second line, top of page 8, strike "may be vested with"
and replace with "has". In the next line, change the line as
follows: "limited A&A authority by virtue of their position."
Next line, change to "grants and non-personal services
contracts that do not exceed $100,000,...."


CC:   IG/A/PA, Catherine Trujillo
      M/MPI, Diane Travis


                                                          20
